                                    March 21, 2003

                                    SUZANNE F. MEDVIDOVICH
                                    SENIOR VICE PRESIDENT, HUMAN RESOURCES

                                    SUBJECT: Management Advisory – Retirement
                                             Eligible Postal Service Employees on the
                                             Workers’ Compensation Periodic Rolls
                                             (Report Number HK-MA-03-001)

                                    This report presents the results of our self-initiated review
                                    of Retirement Eligible Postal Service Employees on the
                                    Workers’ Compensation Periodic Rolls (Project
                                    Number 03YR001HK000).

    Results in Brief                Our review disclosed that Postal Service employees
                                    age 55 and older make up 49 percent (6,500) of the
                                    approximately 13,400 employees on the periodic rolls.1
                                    Further, 70 percent (9,345) of the employees on the periodic
                                    rolls are totally disabled (with little or no future
                                    reemployment potential) or reemployment has not been
                                    determined.

                                    The Postal Service administrative fees have increased
                                    137 percent from $19 million in fiscal year (FY) 1997 to
                                    $45 million in FY 2002. Because the Postal Service’s
                                    administrative fees continue to increase, the Postal Service
                                    should pursue whether congressional assistance should be
                                    sought to pay administrative fees to the Office of Workers’
                                    Compensation Programs.

                                    Legislative reform of the Federal Employees Compensation
                                    Act (act) is needed to address concerns that the act has
                                    become, in effect, a retirement system for some workers’
                                    compensation beneficiaries. Since the Postal Service


1
 Employees on the periodic rolls have permanent disabilities or injuries that have lasted or are expected to last for
prolonged periods (over 1 year).




                                               Restricted Information
Retirement Eligible Postal Service Employees                                                     HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                                 workers’ compensation costs accounts for 35 percent of the
                                 total program costs, legislative reform would give the Postal
                                 Service financial relief and should include:

                                      •   Requiring employees that are totally disabled or
                                          whose reemployment capacity is not determined, to
                                          retire either on medical disability or voluntary
                                          retirement under their applicable retirement program.

                                      •   Converting future employees age 65 and older on the
                                          periodic rolls to the proposed Federal Employees’
                                          Compensation Act annuity.2

                                 These reforms, if implemented, would decrease the number
                                 of employees on the periodic rolls, and would reduce
                                 compensation and medical costs.

                                 This report made one recommendation addressing these
                                 issues. Management agreed with our recommendation
                                 indicating they have supported efforts to change the Federal
                                 Employees Compensation Act, which would alter the
                                 program’s structure. Management further stated that
                                 although legislation has not yet been introduced in the
                                 108th Congress, the administration states in its 2004 budget
                                 that it intends to propose legislation to strengthen program
                                 integrity and to make the act more equitable and easier to
                                 administer. Management’s comments are responsive to our
                                 recommendation and our evaluation of these comments is
                                 included in this report. Management’s comments, in their
                                 entirety, are included in Appendix B of this report.

    Background                   The Federal Employees’ Compensation Act, enacted in
                                 1916, is a comprehensive workers’ compensation law
                                 designed to provide medical and death benefits, income
                                 replacement, and other services to employees with
                                 work-related injuries. The Federal Employees’
                                 Compensation Act was not intended to serve as a
                                 retirement program and places no age or time limitation on
                                 an injured worker’s receipt of workers’ compensation
                                 benefits. Employees who fully or partially recover from their
                                 injuries are expected to return to work.

2
 The Department of Labor proposed an amendment in its FY 2003 budget to convert new beneficiaries at age 65 to
a benefit comparable to what they would receive in a federal retirement program.



                                                       2
                                            Restricted Information
Retirement Eligible Postal Service Employees                                                           HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls


                                    The Department of Labor, Office of Workers’ Compensation
                                    Programs, is responsible for the adjudication of claims and
                                    payment of compensation, medical, and death benefits for
                                    injured federal workers. The benefits are paid from the
                                    Department of Labor’s Employees’ Compensation Fund.

                                    The Office of Workers’ Compensation Programs bills3 each
                                    agency annually for compensation paid to individuals for
                                    work-related injuries. It is the responsibility of each agency
                                    to reimburse the Employees’ Compensation Fund for
                                    expenses paid from the fund for their injured workers. Each
                                    federal agency includes the reimbursement in its
                                    appropriation request. Also, federal agencies do not pay
                                    administrative fees. Non-appropriated agencies, such as
                                    the Postal Service and the Tennessee Valley Authority, pay
                                    compensation for work-related injuries and death, and also
                                    pay administrative fees from their operating revenues.

                                    Employees eligible for Federal Employees’ Compensation
                                    Act benefits receive 66 2/3 percent or 754 percent of their
                                    basic salary tax-free, until they return to work. This amount
                                    also includes an annual cost of living adjustment. In
                                    FY 2002, the program provided all injured federal workers
                                    over $2.2 billion in benefit compensation, with $1.61 billion
                                    for wage loss compensation and the remaining for medical
                                    and death benefits.

                                    In the past, concerns have been raised that the Federal
                                    Employees’ Compensation Act has become, in effect, a
                                    retirement system for some workers’ compensation
                                    employees. In a 1996 report, the General Accounting Office
                                    (GAO) stated that worker’s compensation benefits are not
                                    granted for a lifetime. Nevertheless, the act places no age
                                    or time limitation on injured worker’s receipt of benefits. In
                                    October 2000, the acting inspector general for the
                                    Department of Labor testified, before the House Committee
                                    on Education and the Workforce, Subcommittee on
                                    Workforce Protections. The acting inspector general




3
  The Office of Workers’ Compensation Programs Chargeback System is the mechanism by which the cost of
compensation for work-related injuries and death are billed annually to employing agencies for benefits paid on their
behalf, from July 1 through June 30 each year.
4
  Only employees with dependents receive 75 percent of their basic salary.



                                                          3
                                               Restricted Information
Retirement Eligible Postal Service Employees                                                           HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                                    expressed a concern that the “Federal Employees’
                                    Compensation Act beneficiaries are not required to ‘retire’ at
                                    any age. Consequently, some beneficiaries may remain on
                                    the disability rolls until they die.”

                                    In FY 2002, the Postal Service paid over $805 million in
                                    workers’ compensation benefits and administrative fees to
                                    the Office of Workers’ Compensation Programs. The Postal
                                    Service’s FY 2002 workers’ compensation costs accounted
                                    for 35 percent5 of total workers’ compensation program
                                    expenditures. The Postal Service’s costs include some
                                    cases that originated over 25 years ago.

                                    From FYs 1997 to 2002, the Postal Service’s workers’
                                    compensation costs have increased from $538 million to
                                    $805 million, as shown in the following chart.6



                                                         COMPENSATION COST PER YEAR
                                                                IN MILLIONS


                                       $900
                                                                                                          $805
                                       $800                                                   $731
                                                                                   $671
                                       $700
                                                            $567        $584
                                       $600      $538
                                       $500
                                       $400
                                       $300
                                       $200
                                       $100
                                          $0
                                                 1997       1998        1999       2000       2001        2002




    Objectives, Scope,              Our objectives were to provide detailed information on
    and Methodology                 employees age 55 and older who are on the Postal Service
                                    workers' compensation periodic rolls7 and identify matters


5
  The percentage is based on workers’ compensation benefits paid, excluding administrative fees.
6
  Data is for chargeback years 1997 through 2002.
7
  Also included in our review were employees on the daily rolls (less than 1 year), because the data showed that the
average length of time on the daily roll was 6 years.



                                                          4
                                               Restricted Information
Retirement Eligible Postal Service Employees                                       HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                               for legislative consideration, which could help the Postal
                               Service in its efforts to manage workers’ compensation
                               costs.

                               To identify employees on the periodic rolls, we obtained and
                               reviewed data from the Postal Injury Compensation System,
                               which consists of weekly data from the Office of Workers’
                               Compensation Programs. The weekly data contains
                               compensation and medical payments for each injured
                               Postal Service employee. We did not attempt to assess the
                               reliability of the data from this system as part of our review
                               objectives. We performed limited analysis of the data only
                               to show the status of employees on the periodic rolls. We
                               also interviewed Postal Service officials in the Office of
                               Health and Resource Management to obtain additional data
                               regarding employees on the periodic rolls.

                               To review legislative matters, we reviewed administrative
                               fees for the period FYs 1997 through 2002 using statements
                               of employee compensation and medical benefits from the
                               Office of Workers’ Compensation Programs. We also
                               reviewed the proposed legislative changes to the Federal
                               Employees’ Compensation Act and its possible effect on the
                               Postal Service.

                               This review was conducted from November 2002 through
                               March 2003, in accordance with the President’s Council on
                               Integrity and Efficiency, Quality Standards for Inspections.
                               We discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

 Prior Report                  We did not identify any prior audits or reviews related to the
 Coverage                      objectives of our review.

 Postal Service                The Office of Workers’ Compensation Programs classifies
 Employees on the              injured employees on the periodic rolls in several
 Periodic Rolls                categories. These categories include:

                                   •   Totally disabled (no wage-earning capacity or
                                       reemployment potential for indefinite future)
                                       (Code PN).




                                                   5
                                        Restricted Information
Retirement Eligible Postal Service Employees                                                   HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                                   •   Reemployment or earning capacity not determined
                                       (Code PR).

                                   •   Overpayment (Code OP).

                                   •   Reduced rate reflecting a partial wage-earning
                                       capacity (Code PW).

                                   •   Prolonged disability not indicated (disability not to
                                       exceed 1 year) (Code DR).

                               As of June 2002, the Postal Service periodic rolls consisted
                               of approximately 13,400 employees. According to
                               Department of Labor data, the average length of time these
                               employees were on the periodic rolls and have not returned
                               to work is 13 years. The following chart illustrates the
                               number of employees on the periodic rolls and payment
                               status.

                                                   EMPLOYEE COUNT BY PAYMENT STATUS
                                                            AS OF JUNE 2002
                                                             TOTAL : 13,383
                                                  Overpayment                Daily
                                                       142                   Rolls
                                                      (1%)                   1,437
                                                                             (11%)


                                                                                     Reduced
                                                                                       Rate
                                        Reemployment                                  2,459
                                             Not                                      (18%)
                                         Determined
                                            6,526
                                            (49%)



                                                                                  Totally
                                                                                 Disabled
                                                                                   2,819
                                                                                   (21%)




 Many Employees are            Forty-nine percent (6,500) of the approximately
 Age 55 and Older              13,400 employees receiving compensation are at least
                               age 55, the age at which some federal employees are
                               eligible for voluntary retirement. Of those, 3,543 (55
                               percent) are at least 65 years old.

                               Retirement eligibility depends on minimum retirement age
                               and years of service. For example, federal employees
                               under the Civil Service Retirement System are currently


                                                    6
                                         Restricted Information
Retirement Eligible Postal Service Employees                                                          HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls


                                   eligible at age 55 with 30 years of service, age 60 with
                                   20 years, or age 62 with 5 years of service. In addition, for
                                   eligible employees, the Social Security Administration
                                   provides reduced retirement benefits at age 62, for most
                                   workers. However, age 65 is the age at which they can
                                   retire with full social security benefits. Further, employees
                                   age 65 and older may be eligible to retire under the
                                   Department of Labor’s proposed Federal Employees’
                                   Compensation Act annuity. (See Appendix A for more
                                   information on federal retirement programs.)

    Many Employees on              Our analysis showed that of the approximately
    the Periodic Rolls are         13,4008 Postal Service employees on the periodic rolls,
    Totally Disabled or            according to Department of Labor data, 9,345 (70 percent)
    Reemployment Not               are totally disabled or reemployment has not been
    Determined                     determined. We consider the 9,345 employees in a
                                   potential high-risk category for not returning to work.

                                   Specifically, the data showed the following:

                                   Totally Disabled: Twenty-one percent (2,819) of the
                                   employees on the periodic rolls are totally disabled and
                                   have little or no future reemployment potential.

                                   Reemployment Not Determined: For 49 percent (6,526) of
                                   the employees on the periodic rolls, their ability to return to
                                   work has not been determined as shown in the chart below.
                                   Further, our analysis showed that of the 6,526 employees,
                                   3,900 have been on the rolls more than 5 years. For
                                   example one employee has been on the periodic rolls for
                                   45 years. The following chart illustrates the time period and
                                   number of years of employees with no reemployment
                                   determination.




8
 Our analysis excluded scheduled award cases (payments over a set period for the loss of, or partial loss of, a body
part or function), rehabilitation cases, and death cases in which benefits are paid to survivors.



                                                         7
                                              Restricted Information
Retirement Eligible Postal Service Employees                                                                        HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                                                                 Postal Service Employees with No
                                                                   Reemployment Determination

                                                        3000
                                                                         2415




                                  Number of Employees
                                                        2500

                                                        2000                        1778
                                                                                               1583
                                                        1500

                                                        1000
                                                                                                           588
                                                         500                                                           162
                                                           0
                                                                         1 to 4     5 to 10   11 to 20   21 to 30      30+
                                                                                    Number of Years



                               High-Risk of Not Returning to Work: It is our view that the
                               9,345 employees currently represent a high-risk category.
                               The Postal Service is paying workers’ compensation costs
                               for these employees. However, the Office of Workers’
                               Compensation Programs has classified these employees as
                               totally disabled or a determination has not been made
                               whether they can return to work.

                               Additionally, we believe that this risk will continue until the
                               Federal Employee Compensation Act is changed to require
                               totally disabled employees and those with no reemployment
                               determination to retire under the appropriate federal
                               retirement system. Therefore, these employees will remain
                               on the periodic rolls and continue to receive tax-free
                               workers’ compensation payments that are greater than
                               taxable retirement benefits, which may be a disincentive to
                               return to work. The following chart illustrates the number of
                               employees considered as a high risk.




                                                                      8
                                                           Restricted Information
Retirement Eligible Postal Service Employees                                                                 HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls


                                                                   EMPLOYEES ON PERIODIC ROLLS
                                                                       TOTALLY DISABLED OR
                                                                  REEMPLOYMENT NOT DETERMINED
                                                                         AS OF JUNE 2002
                                                                          TOTAL : 13,383
                                                  Reduced
                                                                                                        Totally
                                                    Rate
                                                                                                       Disabled
                                                   2,459
                                                                                                         2,819
                                                   (18%)
                                                                                                        (21%)
                                                                           High Risk
                                                                             9,345
                                                                             (70%)
                                                                                                      Reemployment
                                                   Daily                                                   Not
                                                   Rolls                                               Determined
                                                   1,437                                                  6,526
                                                   (11%)                                                 (49%)
                                                             Overpayment
                                                                  142
                                                                 (1%)




    The Postal Service              As the Postal Service workers’ compensation costs continue
    Should Pursue Relief            to increase, the Postal Service needs relief from the
    from Administrative             administrative fees paid annually to the Office of Workers’
    Fees                            Compensation Programs. The Postal Service is self-
                                    insured for workers’ compensation, and costs associated
                                    with injured Postal Service employees are recorded as
                                    operating expenses. At the end of each year, a liability is
                                    estimated for Postal Service workers who are or may
                                    become injured in the next fiscal year.

                                    From FYs 1997 to 2002, the Postal Service has paid
                                    administrative fees totaling approximately $175 million. As
                                    shown in the chart9 below, the fees have escalated by
                                    approximately 137 percent -- from $19 million in FY 1997 to
                                    $45 million in FY 2002.


                                                   ADMINISTRATIVE FEE IN MILLIONS

                                          $50
                                                                                                                     $45
                                          $40
                                                                                                           $37
                                          $30                                                   $33

                                          $20                        $21           $20
                                                           $19
                                          $10
                                          $-
                                                    1997          1998         1999      2000         2001        2002


9
    Data is represented by chargeback years.



                                                           9
                                                Restricted Information
Retirement Eligible Postal Service Employees                                      HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                               The Postal Service accounts for the majority of claims
                               submitted for benefits. For example, in FY 2000, Postal
                               Service employees submitted about 85,000 claims, which
                               represented approximately one-half of all claims for new
                               work-related injuries. Postal Service officials are aware of
                               the increasing administrative fees and requested an
                               explanation from the Office of Workers’ Compensation
                               Programs.

 Recommendation                We recommend the senior vice president, Human
                               Resources:

                                   1. Pursue whether congressional assistance should be
                                      sought to pay administrative fees to the Office of
                                      Workers’ Compensation Programs.

 Management’s                  Management agreed with our recommendation indicating
 Comments                      they have supported efforts to change the Federal
                               Employees Compensation Act, which would alter the
                               program’s structure. Management further stated that
                               although legislation has not yet been introduced in the
                               108th Congress, the administration states in its 2004 budget
                               that it intends to propose legislation to strengthen program
                               integrity and to make the act more equitable and easier to
                               administer.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation and the actions taken and planned
 Comments                      address the issues identified in the report.

 Matters for                   The Postal Service’s workers’ compensation costs have
 Legislative                   dramatically increased from $538 million in FY 1997 to
 Consideration                 $805 million in FY 2002. These costs account for
                               35 percent of total workers’ compensation program costs
                               incurred in 2002. Legislative action such as reform of the
                               Federal Employees’ Compensation Act could give the
                               Postal Service financial relief.

                               According to Postal Service officials, with the continued
                               deployment of automation equipment, the number of
                               positions available for injured and noninjured employees are
                               being reduced. As a result, the Postal Service is quickly
                               approaching a condition where they will no longer have



                                                  10
                                        Restricted Information
Retirement Eligible Postal Service Employees                                     HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls


                               positions available to internally accommodate their injured
                               employees.

                               In the past, concerns have been raised that the Federal
                               Employees’ Compensation Act has become, in effect, a
                               retirement system for some employees receiving workers’
                               compensation benefits. As stated above, 49 percent
                               (6,500) of the employees on the periodic rolls are at least
                               age 55. Of those, 3,543 (55 percent) are at least 65 years
                               old. We also believe that 70 percent (9,345) of the
                               employees on the periodic rolls who are classified as totally
                               disabled or with no reemployment determination represent a
                               high risk.

                               Therefore, legislative reform of the Federal Employees’
                               Compensation Act is needed to require these employees to
                               elect one of the retirement options. Some employees could
                               elect medical disability or voluntary retirement (see
                               Appendix A) or retire on the proposed Federal Employees’
                               Compensation Act annuity. This would recognize that the
                               act was intended to serve as an injury compensation
                               program, not a retirement program. Such changes, if
                               enacted, would help the Postal Service, as well as other
                               government agencies, reduce the number of employees on
                               the periodic rolls and decrease workers’ compensation
                               costs.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions or
                               need additional information, please contact Erica Blackman,
                               acting director, Health Care Audits, at (703) 248-2100 or me
                               at (703) 248-2300.



                               B. Wayne Goleski
                               Assistant Inspector General
                                for Core Operations

                               Attachment

                               cc: DeWitt O. Harris
                                   Ronald E. Henderson
                                   Susan M. Duchek




                                                  11
                                        Restricted Information
Retirement Eligible Postal Service Employees                                                HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                                           APPENDIX A

          COMPARISON OF FEDERAL RETIREMENT PROGRAMS
              (MEDICAL DISABILITY AND VOLUNTARY)
                                          MEDICAL DISABILITY
                                            RETIREMENT

Civil Service Retirement System     Federal Employees Retirement          Civil Service Retirement System
             (CSRS)                        System (FERS)                     (CSRS) Offset Retirement
                                             ELIGIBILITY
   •   Employee’s disability          • Employee’s disability               •   Employee’s disability
       expected to last for               expected to last for                  expected to last for
       1 year.                            1 year.                               1 year.

   •   Employees must have            •     Employees must have             •   Employees must have
       5 years of service.                  18 months of service.               5 years of service.

   •   Employing agency must          •  Employing agency must              •   Employing agency must
       certify that they cannot          certify that they cannot               certify that they cannot
       accommodate the injured           accommodate the injured                accommodate the injured
       employee.                         employee.                              employee.
                                     DISABILITY RETIREMENT
                                            BENEFITS
   •   Employee receives              • Employee receives                   •   Employee receives
       benefits equal to the             benefits equal to                      benefits equal to the
       projected benefit at              60 percent of high-3                   projected benefit at age
       age 60, or 40 percent of          average pay minus                      60, or 40 percent of the
       the employee’s high-3             100 percent of entitled                employee’s high-3
       average salary,                   social security benefit.               average salary, whichever
       whichever is less.                                                       is less.
                                      •     After the first year until
   •   If the employee has                  age 62, the employee            •   Employees’ disability
       more than 22 years of                receives 40 percent of              benefit is offset by
       service when declared                their high-3 average pay.           qualified social security
       disabled, accrued                                                        benefits.
       benefits cannot exceed         •     Employee’s disability
       40 percent of salary.                benefit is offset by            •   Cost of living adjustment
                                            qualified social security           matched at full rate of
   •   Employees’ disability                benefit.                            inflation.
       benefit is offset by
       qualified social security      •     No cost of living               •   Survivors’ benefits.
       benefits.                            adjustment during the
                                            first year; up to 2 percent
   •   Cost of living adjustment            after first year.
       matched at full rate of
       inflation.                     •     Disability benefit will be
                                            recomputed at age 62.
   •   Survivors’ benefits.
                                      •     Survivors’ benefits.




                                                    12
                                       Restricted Information
Retirement Eligible Postal Service Employees                                                  HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls



                                 APPENDIX A. CONTINUED

                                     VOLUNTARY RETIREMENT
Civil Service Retirement System     Federal Employees Retirement       Civil Service Retirement System
             (CSRS)                        System (FERS)                  (CSRS) Offset Retirement
                                             ELIGIBILITY

   •   Age 55 and 30 years of         •   Minimum Retirement                  •    Age 55 and 30 years of
       service.                           Age and 30 years of                             service.
                                          service.
   •   Age 60 and 20 years of                                                 •    Age 60 and 20 years of
       service.                       •   Age 60 and 20 years of                          service.
                                          service.
   •   Age 62 and 5 years of                                                  •    Age 62 and 5 years of
       service.                       •   Age 62 and 5 years of                          service.
                                          service.

                                  RETIREMENT BENEFITS
   •   Employee benefit is           • Employee benefit is                •       Employee benefit is
       based on “high-3                 based on “high-3                          based on “high-3
       average pay” over any            average pay” over any                     average pay” over any
       3 consecutive years of           3 consecutive years of                    3 consecutive years of
       creditable service plus          creditable service.                       creditable service plus
       credit for unused sick                                                     credit for unused sick
       leave.                         •   Retirement benefit is                   leave.
                                          equal to 1 percent of
   •   Retirement annuity                 employees’ high-3               •       Retirement annuity
       cannot exceed                      average pay times years                 cannot exceed
       80 percent of                      of creditable service.                  80 percent of high-3
       high-3 average pay,                                                        average pay, unless
       unless the amount over         •   If employee retires at                  the amount over
       80 percent is due to               age 62 or later with at                 80 percent is due to
       crediting unused sick              least 20 years of service,              crediting unused sick
       leave.                             a factor of 1.1 percent is              leave.
                                          used rather than
   •   Survivors’ benefits.               1 percent.                      •       Survivors’ benefits.

                                      •   Survivors’ benefits.




                                                 13
                                       Restricted Information
Retirement Eligible Postal Service Employees                    HK-MA-03-001
 on the Workers’ Compensation Periodic Rolls


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                14
                                       Restricted Information
